Report No. D-2007-103          May 30, 2007




         Air Force KC-X Aerial Refueling
             Tanker Aircraft Program
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DIACAP                DoD Information Assurance Certification and Accreditation
                         Process
DITSCAP               DoD Information Technology Security Certification and
                         Accreditation Process
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
IG                    Inspector General
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704



                                                                             May 30, 2007

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS
                 AND INFORMAnON INTEGRATIONIDOD CHIEF
                 INFORMATION OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, ADMINISTRAnON AND MANAGEMENT

SUBJECT: Report on the Air Force KC-X Aerial Refueling Tanker Aircraft Program
         (Report No. D-2007-103)

        We are providing this report for review and comment. The Director,
Administration and Management did not respond to the draft report; however, we
considered comments from the Assistant Secretary of the Air Force (Acquisition) and the
Assistant Secretary of Defense for Networks and Information Integration! DoD Chief
Information Officer when preparing the final report. This report addresses full and open
competition for the Air Force KC-X Aerial Refueling Tanker Aircraft Program and the
capability and acquisition requirements in the KC-X request for proposal.
         We request that the Director, Administration and Management provide comments
to the final report by June 20, 2007 that conform to the requirements of DoD Directive
7650.3.
        If possible, please send management conunents in electronic format (Adobe
Acrobat file only) to AudACM@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
        We appreciate the courtesies extended to our staff. Questions should be directed
to Mr. Benjamin A. Mehlman at (703) 604-9291 (DSN 664-9291) or Mr. Kenueth H.
Stavenjord at (703) 604-8952 (DSN 664-8952). See Appendix F for the report
distribution. The team members are listed inside the back cover.




             Richard B. J 0 liffe
       Assistant Inspector General                 Acting Deputy Inspector General
   Acquisition and Contract Management                  Policy and Oversight
                Department of Defense Office of Inspector General
Report No. D-2007-103                                                         May 30, 2007
    (Project Nos. D2007-D000AB-0099.000 and
                  D2007-D000PT-0110.000)

        Air Force KC-X Aerial Refueling Tanker Aircraft Program

                                 Executive Summary

Why You Should Read This Report. This report discusses efforts by Air Force
acquisition officials to develop an acquisition strategy to ensure that the Air Force
maintains competition throughout the life-cycle of the Air Force KC-X Aerial Refueling
Tanker Aircraft Program (the KC-X Program).

Background. On March 29, 2004, we issued DoD Inspector General Report
No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker Aircraft,” that identified
deficiencies and shortcomings in the acquisition strategy that the Air Force developed to
lease Boeing KC-767A Tanker aircraft. Since then, the Air Force revised its acquisition
strategy and plans to recapitalize the aerial tanker fleet by developing three consecutive
acquisition programs: KC-X, KC-Y, and KC-Z. The intention of those programs was to
represent different tanker aircraft platforms. The KC-X Program is a major Defense
acquisition program that will provide worldwide, day and night, and adverse weather
aerial refueling to United States, allied, and coalition military aircraft. The KC-X aircraft
are to replace approximately one-third of the warfighting capability provided by the
current aerial refueling fleet of KC-135 tanker aircraft. On January 30, 2007, the
Air Force issued a request for proposal for the KC-X Program. As of April 2007, the
system development and demonstration phase of the program, which includes the
manufacture of four test aircraft, is scheduled to begin in the first quarter of FY 2008
with low-rate initial production projected to begin in FY 2010. The Air Force plans to
purchase 179 aircraft under the KC-X Program and for the first 43 aircraft, the Air Force
projects program costs to total about $13 billion through FY 2013.

Results. To overcome the deficiencies and shortcomings in the previous leasing
acquisition strategy for tanker aircraft, the Air Force changed from a sole-source to a
competitive procurement acquisition strategy. To ensure full and open competition, the
acquisition strategy for the KC-X Program provides for the Air Force to competitively
contract for as many as 80 commercial derivative aircraft out of the intended procurement
of 179 KC-X tanker aircraft. In preparing for the release of the request for proposal, the
Air Force complied with the DoD 5000 series requirements that we identified as a
shortcoming in the March 2004 audit report. Although the Air Force planned to compete
the KC-X tanker aircraft and appropriately establish capabilities and DoD acquisition
requirements, we identified two issues that required further action.

   •   For the remaining 99 of 179 KC-X aircraft identified in the KC-X acquisition
       strategy, the Air Force intended to acquire those aircraft as early as FY 2016
       using a noncompetitive procurement action with the winner of the competition in
       the first quarter of FY 2008. In doing so, the Air Force did not include in the
       KC-X acquisition strategy a requirement to obtain accurate, complete, and current
       cost and pricing data to determine the reasonableness of the contractor’s proposed
       price for the noncompetitive portion of the KC-X aircraft acquisition. As a result,
       the Air Force may not be in a position to effectively evaluate the reasonableness
       of the contractor’s proposed price for the 99 KC-X aircraft. The Program
       Director, 653rd Aeronautical Systems Squadron (KC-X Program Office) needs to
       update the acquisition strategy for the KC-X Program to include guidance for the
       noncompetitive portion of the KC-X aircraft acquisition. The additional guidance
       in the acquisition strategy should include a requirement to obtain certified cost
       and pricing data from the winning contractor for the future noncompetitive
       portion of the KC-X aircraft acquisition (finding A).

   •   The KC-X Program Office was not able to include consistent information
       assurance requirements in the KC-X capability development document,
       acquisition strategy, and request for proposal, because the Assistant Secretary of
       Defense for Networks and Information Integration/DoD Chief Information
       Officer issued interim DoD information assurance guidance without the proper
       coordination and approval of the Director, Administration and Management. In
       addition, the Assistant Secretary of the Air Force (Acquisition) needs to revise the
       applicable KC-X contractual documents to ensure consistency with the Director,
       Administration and Management approved information assurance policy
       (finding B).

For the competitive procurement of KC-X aircraft identified in the request for proposal,
the Air Force had established adequate internal controls. For the noncompetitive portion
of the KC-X aircraft acquisition, the Air Force had not. Thus, the noncompetitive portion
had a non-material internal control weakness. In addition, the improper issuance by the
Assistant Secretary of Defense for Networks and Information Integration/DoD Chief
Information Officer of DoD information assurance certification and accreditation
guidance was a non-material internal control weakness.

Management Comments and Audit Response. We provided a draft of this report on
April 26, 2007. The Director, Administration and Management did not provide
comments. The Assistant Secretary of the Air Force (Acquisition) concurred with the
audit findings and the recommendations directed to the Air Force. Although not required
to comment, the Assistant Secretary of Defense for Networks and Information
Integration/DoD Chief Information Officer provided comments to finding B and its
recommendations. We request that the Director, Administration and Management
comment on this report by June 20, 2007. See the Management Comments section of the
report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                            i

Background                                                                  1

Objectives                                                                  2

Review of Internal Controls                                                 2

Findings
     A. Acquisition of the KC-X Aerial Refueling Tanker                      4
     B. Properly Establishing Information Assurance Guidance                 8

Appendixes
     A. Scope and Methodology                                               12
         Prior Coverage                                                     15
     B. Government Accountability Office Report                             16
     C. Recommendations Made to the Air Force in a Previous DoD Inspector
          General Report on the Tanker Aircraft                             18
     D. KC-X Program Timeline of Events                                     22
     E. Glossary                                                            25
     F. Report Distribution                                                 29

Management Comments
     Department of the Air Force                                            31
     Assistant Secretary of Defense (Network Information and Integration)   33
Source: Airliners.Net http://www.airliners.net

KC-135 Stratotanker Aircraft
Background
    We performed this audit at the request of a member of Senator John McCain’s
    staff. The staffer requested that we independently review and advise him on
    whether the Air Force request for proposal for the Air Force KC-X Aerial
    Refueling Tanker Aircraft Program (the KC-X Program) contained impediments
    to competition and whether the request for proposal included capability or
    operational requirements for aircraft refueling, passenger, and cargo transport. In
    addition, we reviewed actions that the Air Force took to correct shortcomings that
    we identified in DoD Inspector General (IG) Report No. D-2004-064,
    “Acquisition of the Boeing KC-767A Tanker Aircraft,” March 29, 2004.

    Boeing KC-767A Tanker Aircraft Report. In DoD IG Report No. D-2004-064,
    we stated that the Air Force used an inappropriate procurement strategy and
    demonstrated neither best business practices nor prudent acquisition procedures to
    provide sufficient accountability for the KC-767A Tanker aircraft. We identified
    five statutory provisions that had not been satisfied relating to commercial items,
    testing (two statutes), cost-plus-a-percentage-of-cost system of contracting, and
    leases. We recommended that DoD not proceed with the program until it
    resolved issues pertaining to the procurement strategy, acquisition procedures,
    and statutory requirements.

    Since that report, the Air Force revised its acquisition strategy from a sole-source
    to a competitive procurement strategy to address the shortcomings in the Boeing
    KC-767A Tanker aircraft report. The Air Force also plans to recapitalize the
    aerial tanker fleet by developing three consecutive acquisition programs: KC-X,
    KC-Y, and KC-Z. Those three programs may represent different tanker aircraft
    platforms. Appendix C provides a discussion of the Boeing KC-767A Tanker
    aircraft report and the Air Force actions to appropriately implement
    14 recommendations in the report. Appendix E is a glossary of technical terms
    used in this report.

    KC-X Program. The KC-X Program is a major Defense acquisition program
    that will provide worldwide, day and night, and adverse weather aerial refueling
    to United States, allied, and coalition military aircraft. The KC-X aircraft are to
    replace approximately one-third of the warfighting capability provided by the
    current aerial refueling fleet of KC-135 tanker aircraft. The figure on the opposite
    page shows the current KC-135 aerial tanker aircraft.

    KC-X Acquisition Strategy. The KC-X Program acquisition strategy is focused
    on an existing commercial, Federal Aviation Administration, or equivalent,
    certified transport aircraft modified to meet U.S. Air Force requirements. Over a
    15- to 20-year period, the Air Force plans to acquire as many as 179 KC-X
    aircraft by competitively procuring as many as 80 commercial-derivative aircraft.
    The Air Force retains an option to acquire at least 99 aircraft from the winner of
    the competitive procurement using a noncompetitive acquisition. Alternatively,
    the Air Force may bypass future KC-X aircraft in favor of a new KC-Y
    competition based on a different aircraft platform.




                                          1
     As of April 2007, the system development and demonstration phase of the
     program, which includes the manufacture of four test aircraft, is scheduled to
     begin in the first quarter of FY 2008. Low-rate initial production is projected to
     begin in FY 2010. For the first 43 aircraft, the Air Force projects program costs
     to be about $13 billion through FY 2013.

     Timeline of Events. In August 2005, the Air Force released a request for
     information regarding a replacement aircraft for the KC-135. On September 23,
     2005, the Acting Secretary of the Air Force directed the Air Force to cease all
     KC-X activities until it completed an assessment of the analysis of alternatives
     and coordinated with Congress. In March 2006, the RAND Corporation
     completed the analysis of alternatives for the Air Force. On April 13, 2006, the
     Under Secretary of Defense for Acquisition, Technology, and Logistics signed a
     memorandum authorizing the Air Force to resume the requirements and
     acquisition process for a competitive KC-X acquisition. On January 30, 2007, the
     653rd Aeronautical Systems Squadron (the KC-X Program Office), which is
     responsible for management of the KC-X Program, issued a final request for
     proposal. Appendix D provides a timeline of events associated with the KC-X
     Program.

Objectives
     Our audit objectives were to evaluate the overall acquisition strategy of the KC-X
     Program to promote full and open competition and to determine whether DoD
     capability and acquisition requirements had been appropriately established and
     included in the request for proposal for the KC-X Program. We did not
     specifically comment on the portion of the request received from a member of
     Senator John McCain’s staff that related to passenger and cargo capabilities since
     the Government Accountability Office (GAO) issued a report concerning this
     requirement. We discuss this GAO report in Appendix B. See Appendix A for a
     discussion of the scope and methodology and prior coverage related to the
     objectives.

Review of Internal Controls
     Nonmaterial Internal Control Weaknesses. We did not identify any material
     weaknesses in the application of internal controls associated with the KC-X
     Program, as defined by DoD Instruction 5010.40, “Managers’ Internal Control
     (MIC) Program Procedures,” January 4, 2006. However, we did identify
     nonmaterial internal control weaknesses associated with the noncompetitive
     portion of the KC-X aircraft acquisition and with the issuance of improper DoD
     information assurance certification and accreditation guidance.

             KC-X Program. The Air Force did not fully implement internal controls
     outlined in the Federal Acquisition Regulation (FAR), Subpart 7.105, “Contents
     of Written Acquisition Plans”; and FAR, Subpart 15.403-4, “Requiring Cost or
     Pricing Data,” relating to follow-on contracts. Specifically, the acquisition
     strategy for the KC-X Program did not address the specific actions needed to
     acquire the noncompetitive portion of the KC-X aircraft acquisition to ensure that


                                          2
it receives a fair and reasonable price. Implementing Recommendation A. will
improve Air Force contract procedures for the noncompetitive portion of the
KC-X aircraft acquisition.

        DoD Information Assurance Guidance. Although the internal controls
outlined in DoD Directive 5025.1, “DoD Directives System,” July 14, 2004,
clearly indicated the requirement for coordinating proposed DoD issuances and
cancellations, the Assistant Secretary of Defense for Networks and Information
Integration/DoD Chief Information Officer did not fully comply with them before
issuing the DoD Information Assurance Certification and Accreditation Process
(DIACAP) interim guidance. Specifically, the Assistant Secretary did not
properly coordinate proposed DIACAP guidance and submit that guidance to the
Director, Administration and Management for review, coordination, and approval.
Implementing Recommendation B.1. will avoid confusion as to which
information assurance certification and accreditation guidance the DoD and
contractor personnel should use when establishing information assurance
requirements for programs.




                                   3
           A. Acquisition of the KC-X Aerial
              Refueling Tanker
           To overcome the deficiencies and shortcomings in the previous leasing
           acquisition strategy for the Boeing KC-767A Tanker aircraft, the
           Air Force changed from a sole-source to a competitive procurement
           acquisition strategy. To ensure full and open competition, the acquisition
           strategy for the KC-X Program provides for the Air Force to competitively
           contract for as many as 80 commercial derivative aircraft of the intended
           procurement of 179 KC-X tanker aircraft. In addition, the Air Force
           appropriately established and included capabilities and DoD acquisition
           requirements, including systems engineering, in the KC-X request for
           proposal. Although the Air Force planned to compete the KC-X tanker
           aircraft and appropriately establish capabilities and DoD acquisition
           requirements, we identified the following issue concerning the
           noncompetitive procurement for 99 of the intended 179 aircraft.

           The Air Force did not have an approach for ensuring price reasonableness
           for the remaining acquisition of 99 KC-X aircraft. The Air Force planned
           to acquire those aircraft as early as FY 2016 using a noncompetitive
           procurement action with the winner of the initial competition. In doing so,
           the Air Force did not include in the KC-X acquisition strategy a
           requirement to obtain accurate, complete, and current cost and pricing data
           to determine the reasonableness of the contractor’s proposed price for the
           noncompetitive portion of the KC-X aircraft acquisition. As a result, the
           Air Force may not be in a position to effectively evaluate the
           reasonableness of the contractor’s proposed price for the 99 KC-X
           aircraft.

Competitive Procurement Acquisition Strategy
    Full and Open Competition, Systems Engineering, Capability Requirements,
    Policy. DoD Directive 5000.1, “The Defense Acquisition System,” May 12,
    2003; DoD Instruction 5000.2, “Operation of the Defense Acquisition System,”
    May 12, 2003; Chairman of the Joint Chiefs of Staff Instruction 3170.01E, “Joint
    Capabilities Integration and Development System,” May 11, 2005; and FAR,
    Subpart 6.1, “Full and Open Competition;” provide guidance on systems
    engineering, system development and demonstration documentation, capability
    requirements, and full and open competition, respectively.

           DoD Directive 5000.1. DoD Directive 5000.1 requires acquisition
    programs to be managed by applying a systems engineering approach that
    optimizes system performance and minimizes ownership costs.

             DoD Instruction 5000.2. DoD Instruction 5000.2 identifies documents
    that support the system development and demonstration decision review, such as
    the initial capabilities document and the capability development document.




                                        4
            Joint Chiefs of Staff Instruction. Chairman of the Joint Chiefs of Staff
    Instruction 3170.01E states that the Joint Requirements Oversight Council is the
    final validation and approval authority for capability development documents for
    programs that have the potential for joint interest.

           Federal Acquisition Regulation. FAR, Subpart 6.1 prescribes the policy
    and procedures that are to be used to promote and provide for full and open
    competition.

    Full and Open Competition. To ensure full and open competition and to
    eliminate impediments to competition, the acquisition strategy for the KC-X
    Program provides for the Air Force to competitively contract for as many as
    80 commercial derivative aircraft of the intended procurement of 179 KC-X
    tanker aircraft. Consistent with FAR, Subpart 6.101, the KC-X Program Office
    promoted full and open competition in soliciting offers in its request for proposal
    for as many as 80 commercial derivative aircraft as described in the KC-X
    acquisition strategy. The competitive procurement acquisition strategy corrects
    the deficiencies in the previous leasing acquisition strategy for the Boeing
    KC-767A Tanker aircraft.

    Appropriately Establishing Requirements. The KC-X Program Office
    appropriately established and included capabilities requirements in the KC-X
    request for proposal. The Air Force established those capabilities requirements
    through the Joint Capabilities Integration and Development System process in
    accordance with Chairman of the Joint Chiefs of Staff Instruction 3170.01E. The
    Air Force documented those capabilities in the initial capabilities document and
    the capability development document in accordance with DoD Instruction 5000.2.
    In addition, the KC-X Program Office properly established and included DoD
    acquisition requirements, including systems engineering, in the request for
    proposal to transform the capability requirements into an operationally effective
    and suitable system, in accordance with DoD Directive 5000.1 and DoD
    Instruction 5000.2.

Cost and Pricing Data
    Acquisition Plan and Cost and Pricing Data Policy. FAR, Subpart 7.105,
    “Contents of Written Acquisition Plans,” stipulates the contents of acquisition
    plans. FAR, Subpart 15.403-4, “Requiring Cost or Pricing Data,” requires the
    contracting officer to obtain cost or pricing data only if the contracting officer
    concludes that an exception does not apply. Unless an exception applies, cost or
    pricing data are required before the award of any negotiated contract that is
    expected to exceed the current threshold of $650,000.

    Cost and Pricing Data for the Sole-Source Acquisition. The Air Force planned
    to competitively contract for as many as 80 aircraft out of a total of 179 KC-X
    tanker aircraft and award that contract to one contractor. For the remaining
    acquisition of at least 99 KC-X aircraft, the Air Force intended to award a
    contract for the KC-X aircraft using a noncompetitive arrangement to the same
    contractor.



                                         5
    However, the Air Force did not have an approach for ensuring accurate, complete,
    and current cost and pricing data for the noncompetitive portion of the KC-X
    aircraft acquisition.

    The Air Force planned to acquire the noncompetitive portion of the KC-X aircraft
    acquisition as early as FY 2016 with the winner of the initial competition, which
    is anticipated for the first quarter of FY 2008. In doing so, the Air Force did not
    include the following in the KC-X acquisition strategy, which is also the
    acquisition plan.

           •   The acquisition approach for the noncompetitive portion of the KC-X
               aircraft acquisition, in accordance with FAR Subpart 7.105

           •   A requirement to obtain accurate, complete, and current cost and
               pricing data to determine the reasonableness of the contractor’s
               proposed price for the noncompetitive portion of the KC-X aircraft
               acquisition, in accordance with FAR, Subpart 15.403-4

    Effect of Not Updating the Acquisition Strategy. Without updating the
    acquisition strategy to include an approach for obtaining accurate, complete, and
    current cost and pricing data for the noncompetitive portion of the KC-X aircraft
    acquisition, the Air Force cannot:

           •   ensure that it accomplishes program objectives and contractual
               requirements within resource constraints, and

           •   evaluate price reasonableness to determine a fair and reasonable price.

Conclusion
    To ensure that the Air Force obtains accurate, complete, and current cost and
    pricing data for the noncompetitive portion of the KC-X aircraft acquisition, the
    KC-X Program Office must update the KC-X acquisition strategy. Specifically,
    the update to the acquisition strategy should provide guidance for the acquisition
    approach beyond the initial request for proposal in accordance with FAR,
    Subpart 7.105, “Contents of Written Acquisition Plans.” The additional guidance
    should include a requirement to obtain certified cost and pricing data from the
    winning contractor to ensure that the Air Force receives a fair and reasonable
    price for the future noncompetitively acquired KC-X aircraft, in accordance with
    the FAR, Subpart 15.403-4, “Requiring Cost or Pricing Data.”

Management Comments on the Finding
    The Assistant Secretary of the Air Force (Acquisition) concurred with the finding
    and stated that the Air Force KC-X Program Office will make appropriate
    changes to the specified documents at the first opportunity. For the complete text
    of the Assistant Secretary’s comments, see the Management Comments section of
    the report.



                                         6
Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Program Director, 653rd Aeronautical Systems
    Squadron (KC-X Program Office) update the acquisition strategy for the
    KC-X Aerial Refueling Tanker Aircraft Program to include guidance for the
    noncompetitive portion of the KC-X aircraft acquisition, in accordance with
    Federal Acquisition Regulation, Subpart 7.105, “Contents of Written
    Acquisition Plans.” The additional guidance in the acquisition strategy
    should include a requirement to obtain certified cost and pricing data from
    the winning contractor for the future noncompetitive portion of the KC-X
    aircraft acquisition, in accordance with the Federal Acquisition Regulation,
    Subpart 15.403-4, “Requiring Cost or Pricing Data.”

    Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
    concurred with the recommendation. She stated that, consistent with the request
    for proposal, all contracts will include all required FAR clauses in accordance
    with FAR 15.403-4 to ensure that cost and pricing data are obtained for new
    aircraft and any modifications. The Assistant Secretary also stated that the KC-X
    Program Office will satisfy the finding by including this detailed information in
    the Acquisition Strategy Report update for milestone decision to enter the system
    development and demonstration phase of the acquisition process, anticipated by
    the end of 2007. For the complete text of the Assistant Secretary’s comments, see
    the Management Comments section of the report.

    Audit Response. The Assistant Secretary’s comments are fully responsive and
    meet the intent of our recommendation.




                                        7
           B. Properly Establishing Information
              Assurance Guidance
           The KC-X Program Office was not able to include consistent information
           assurance requirements in the KC-X capability development document,
           acquisition strategy, and request for proposal. The lack of consistent
           information occurred because the Assistant Secretary of Defense for
           Networks and Information Integration/DoD Chief Information Officer
           issued interim information assurance guidance without the proper
           coordination and approval of the Director, Administration and
           Management. The interim guidance, DIACAP, was to supersede guidance
           on the DoD Information Technology Security Certification and
           Accreditation Process (DITSCAP). However, DITSCAP remains the
           official DoD information assurance guidance until the DIACAP guidance
           is properly coordinated and approved in accordance with DoD policy.

Information Assurance Policy
    DoD Directive 5025.1. DoD Directive 5025.1, “DoD Directives System,”
    July 14, 2004, provides policy and responsibilities governing DoD directives,
    instructions, and publications. The Directive requires the Director,
    Administration and Management, to review, coordinate, and approve DoD
    issuances.

    DoD Instruction 5200.40. DoD Instruction 5200.40, “DoD Information
    Technology Security Certification and Accreditation Process (DITSCAP),”
    December 30, 1997, requires the Heads of the DoD Components to implement the
    DITSCAP for security certification and accreditation of DoD Component and
    DoD contractor information technology systems and networks.

Information Assurance Requirements
    Consistent Information Assurance Requirements. The KC-X Program Office
    did not include consistent information assurance requirements in the KC-X
    capability development document, the acquisition strategy, and the request for
    proposal. Specifically, the Capability Development Document, December 27,
    2006, requires the system to be certified and accredited in accordance with
    DITSCAP but also references DIACAP. However, the Acquisition Strategy,
    January 19, 2007, and the Final Request for Proposal, January 30, 2007, stipulate
    that DIACAP be followed exclusively for certification and accreditation. Those
    inconsistent information assurance requirements occurred because of improperly
    coordinated interim DIACAP guidance issued by the Assistant Secretary of
    Defense for Networks and Information Integration/DoD Chief Information
    Officer.

    Properly Coordinating Interim Guidance. The Assistant Secretary of Defense
    for Networks and Information Integration/DoD Chief Information Officer issued


                                        8
    interim information assurance guidance without proper coordination and approval
    of the Director, Administration and Management. Specifically, on July 6, 2006,
    the Assistant Secretary issued a memorandum, “Interim Department of Defense
    (DoD) Information Assurance (IA) Certification and Accreditation (C&A)
    Process Guidance,” that established interim guidance, including a draft
    instruction, for the DIACAP. The Assistant Secretary stated that the interim
    guidance superseded the DITSCAP and established procedures for information
    assurance certification and accreditation of DoD information systems to identify,
    implement, and manage information assurance capabilities and services.

    DoD Directive 5025.1 requires proposed DoD issuances and cancellations to be
    formally coordinated with Heads of DoD Components to solicit their views. In
    addition, the Directive requires issuances to be coordinated with the DoD General
    Counsel; the DoD IG; and approved by the Director, Administration and
    Management at the Washington Headquarters Services. On August 2, 2006, a
    representative for the Washington Headquarters Services sent an e-mail to the
    Office of the Assistant Secretary of Defense for Networks and Information
    Integration stating that the DIACAP interim guidance could not supersede the
    DITSCAP guidance because the Office of the Assistant Secretary did not properly
    coordinate the interim guidance in accordance with DoD Directive 5025.1.

    According to a representative from Washington Headquarters Services, until the
    DIACAP interim guidance or the proposed draft instruction is reviewed,
    coordinated, and approved by the Director, Administration and Management,
    DITSCAP remains the official DoD information assurance certification and
    accreditation policy.

Effect of Improper Information Assurance Guidance
    Issuance of information assurance guidance before proper coordination, approval,
    and implementation, could place systems, such as the KC-X, at a greater risk of
    loss, misuse, or unauthorized access to or modification of the information
    contained in the systems.

Conclusion
    To ensure consistent information assurance certification and accreditation
    guidance within the DoD, the Director, Administration and Management must
    approve guidance that has been properly coordinated with the Assistant Secretary
    of Defense for Networks and Information Integration/DoD Chief Information
    Officer and other DoD Components.

    Because the Director, Administration and Management must approve any official
    DoD information assurance certification and accreditation policy, the KC-X
    Program Office should revise the applicable KC-X contracting documents to
    reference only the Director Administration and Management approved
    information assurance guidance.



                                        9
Management Comments on the Finding
    Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
    concurred with the finding and stated that the Air Force KC-X Program Office
    will make appropriate changes to the specified documents at the first opportunity.
    For the complete text of the Assistant Secretary’s comments, see the Management
    Comments section of the report.

    Assistant Secretary of Defense for Networks and Information Integration
    Comments. Although not required to comment, the Senior Information
    Assurance Officer, Office of the Assistant Secretary of Defense for Networks and
    Information Integration/ DoD Chief Information Officer stated that the KC-X
    request for proposal was not inconsistent as it specifically identified DIACAP as
    the method for certification and accreditation. The Senior Information Assurance
    Officer stated that interim DIACAP guidance resulted in multiple information
    assurance benefits. The Senior Information Assurance Officer disagreed with
    finding statements that issuance of information assurance guidance before proper
    coordination, approval, and implementation, could place systems, such as the
    KC-X, at a greater risk of loss, misuse, or unauthorized access. For the complete
    text of the Senior Information Assurance Officer’s comments, see the
    Management Comments section of the report.

    Audit Response. As noted in the finding, the KC-X Capability Development
    Document required the system to use DITSCAP guidance for certification and
    accreditation, thus clearly conflicting with the DIACAP requirement in the
    request for proposal. The Assistant Secretary of Defense for Networks and
    Information Integration/DoD Chief Information Officer issuance of the interim
    DIACAP guidance was contrary to DoD Policy as the Director, Administration
    and Management, must approve any official DoD information assurance
    certification and accreditation policy after proper coordination in accordance with
    DoD Directive 5025.1.

Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that by August 1, 2007, the Director, Administration
    and Management, according to his authority, and in coordination with the
    Assistant Secretary of Defense for Networks and Information
    Integration/DoD Chief Information Officer:

           a. Issue formal authoritative information assurance policy in
    accordance with DoD Directive 5025.1, “DoD Directives System,” July 14,
    2004, or

          b. Issue guidance to the Air Force regarding applicable information
    assurance certification and accreditation processes for inclusion in its KC-X
    contractual documents.



                                        10
Director, Administration and Management Comments. The Director did not
comment on the recommendation. We request that the Director provide
comments in response to the final report.

Assistant Secretary of Defense for Networks and Information Integration/
DoD Chief Information Officer Comments. Although not required to
comment, the Senior Information Assurance Officer, Office of the Assistant
Secretary of Defense for Networks and Information Integration/ DoD Chief
Information Officer stated that the Principal Staff Assistants are responsible for
preparing, coordinating, and approving instructions within their areas of
responsibility and that the recommendation should be redirected.

Audit Response. We disagree that the recommendation should be redirected
because the Director, Administration and Management is the issuing authority in
accordance with DoD Directive 5025.1. The current interim DIACAP guidance is
presently being coordinated within DoD under DoD Directive 5025.1. The
coordination process has yet to be completed.

B.2. We recommend that the Assistant Secretary of the Air Force
(Acquisition) revise the applicable KC-X contractual documents to ensure
consistency with the Director, Acquisition and Management approved
information assurance policy as established in Recommendation B.1.

Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
concurred with the recommendation and stated that the Air Force will ensure
compliance with approved information assurance policy as established in
Recommendation B.1. For the complete text of the Assistant Secretary’s
comments, see the Management Comments section of the report.

Audit Response. The Assistant Secretary’s comments are fully responsive and
meet the intent of our recommendation.




                                     11
Appendix A. Scope and Methodology
   On December 19, 2006, a member of Senator John McCain’s staff requested that
   we independently review and advise him on whether the Air Force request for
   proposal for an aerial tanker replacement contained impediments to competition
   and whether the request for proposal included capability or operational
   requirements for aircraft refueling and cargo transport. To accomplish the staff
   request and the audit objectives, we reviewed the following documentation and
   information dated from February 2004 through February 2007.

          •   Program documents including the Initial Capabilities Document,
              April 27, 2005; the Analysis of Alternatives for KC-135
              Recapitalization, March 2006; the Objectivity Assessment of AoA for
              KC-135 Recapitalization, March 2006; the Tanker Acquisition
              Replacement Acquisition Decision Memorandum, April 13, 2006; the
              Draft Test and Evaluation Master Plan, November 29, 2006; the
              Capability Development Document, December 27, 2006; the
              Statement of Objectives, December 11, 2006; the Draft Acquisition
              Strategy, December 15, 2006; the KC-X Market Research
              Consolidated Report, December 22, 2006; the Acquisition Strategy,
              Version 03.2, January 19, 2007; the KC-X Acquisition Strategy Panel
              Minutes, January 29, 2007; the System Requirements Document,
              January 25, 2007; and the Draft Systems Engineering Plan,
              February 8, 2007.

          •   Contractual documents for the KC-X, including the Source Selection
              Plan, January 30, 2007; the Draft Request for Proposal, September 25,
              2006; the Draft Request for Proposal, December 15, 2006; and the
              Final Request for Proposal, January 30, 2007.

          •   Acting Under Secretary of Defense for Acquisition, Technology, and
              Logistics Memorandum, “Analysis of Alternatives (AoA) Guidance
              for KC-135 Recapitalization,” February 24, 2004; Acting Under
              Secretary of Defense for Acquisition, Technology, and Logistics
              Memorandum, “KC-135 Recapitalization Analysis of Alternatives,”
              February 28, 2005; and Under Secretary of Defense for Acquisition,
              Technology, and Logistics Memorandum, “Tanker Replacement
              Acquisition Decision Memorandum (ADM),” April 13, 2006.

          •   Congressional documents, including the FY 2005 Department of
              Defense Appropriation Act, Section 8132, “Tanker Replacement
              Transfer Fund.”

          •   Management principles and mandatory policies for acquisition
              programs in DoD Directive 5000.1, DoD Instruction 5000.2, the
              Defense Acquisition Guidebook, the FAR, and management control
              provisions and key internal controls in Air Force policy.

   We also contacted the staffs of the Offices of the Under Secretary of Defense for
   Acquisition, Technology, and Logistics; the Assistant Secretary of Defense for

                                       12
Networks and Information Integration/DoD Chief Information Officer; the
Air Mobility Command; the Assistant Secretary of the Air Force (Acquisition);
the Director, Operational Test and Evaluation; the Director, Administration and
Management; the Director, the Program Analysis and Evaluation; the DoD Cost
Analysis Improvement Group; the General Counsel, Department of the Air Force;
the Program Executive Officer for Aircraft; the Deputy Chief of Staff for Air and
Space Operations; the Program Director, 653rd Aeronautical Systems Squadron
(KC-X Program Office); the Government Accountability Office (GAO); the
RAND Corporation; and the Institute for Defense Analyses. We contacted those
staff, as applicable, to

       •   evaluate the program management and procurement decision process
           used by the Air Force Acquisition Executive, the Program Executive
           Officer, and the contracting officer;

       •   evaluate the acquisition strategy and process based on criteria set forth
           in the DoD 5000 series, the FAR, and Air Force policy;

       •   evaluate the request for proposal for limitations in promoting
           competition;

       •   compare the request for proposal to the capability development
           document for the KC-X Program to determine whether the request for
           proposal adequately communicated Air Force requirements to
           prospective contractors;

       •   review the acquisition strategy to determine whether it included the
           required elements of an acquisition plan;

       •   review KC-X funding documentation to determine whether contractual
           options were constrained by funding availability;

       •   evaluate whether the Air Force implemented corrective actions on
           14 outstanding recommendations made in DoD Inspector General (IG)
           Report No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker
           Aircraft,” March 29, 2004 (see Appendix C for a discussion of the
           recommendations and corrective action);

       •   develop a matrix to verify the requirements flow from the initial
           capabilities document to the capability development document to the
           system requirements document and to the final request for proposal;

       •   compare the systems engineering section of the request for proposal to
           guidance in the Defense Acquisition Guidebook;

       •   evaluate the test and evaluation master plan to determine whether it
           included required tests for developmental and operational test and
           evaluation;

       •   evaluate information assurance requirements for complying with DoD
           policy;


                                    13
       •   review the DoD policies concerning the DITSCAP and the DIACAP
           implementation;

       •   assess whether the Air Force adequately addressed capability,
           acquisition requirements, and systems engineering in the request for
           proposal;

       •   assess systems engineering process that the KC-X Program Office
           administered; and

       •   assess the Air Mobility Command’s Combined Mating and Ranging
           Planning System model at Scott Air Force Base, Illinois.

We performed this audit from December 2006 through April 2007 in accordance
with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. Except for the following audit scope limitations, we believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

Limitations to Audit Scope. We did not obtain or evaluate detailed Air Force
supporting documentation for the KC-X Program analysis of alternatives,
including cargo transport, because of the concurrent Government Accountability
Office review of the analysis of alternatives (see Prior Coverage below and
Appendix B). In addition, because of time limitations, we neither assessed the
Air Mobility Command’s Combined Mating and Ranging Planning System model
nor simulated, using modeling techniques, a mixed fleet of Airbus 330,
Airbus 340, Boeing 767, and Boeing 777 aircraft to determine the actual cost
savings and capabilities associated with such a fleet. Further, we did not assess
the Joint Capabilities Integration and Development System process for
generation, validation, and approval of the initial capabilities document and the
capability development document because of time constraints.

Limitation to Auditor Independence. The Office of the DoD IG commented on
the language to be included in the proposed DoD instruction pertaining to
DIACAP.

Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

Use of Technical Assistance. The Technical Assessment Directorate, Office of
the Deputy IG for Policy and Oversight determined whether the Air Force
appropriately established and included DoD capability and acquisition
requirements in the request for proposal for the KC-X Program.

Government Accountability Office High-Risk Area. The GAO has identified
several high-risk areas in DoD. This report provides coverage of the DoD
Weapon Systems Acquisition high-risk area.




                                    14
Prior Coverage
      During the last 5 years, the GAO has issued one report addressing the KC-X
      Program. Although the DoD IG has not issued any reports that specifically
      discuss the KC-X Program, the Air Force implemented recommendations from a
      previous audit of the Air Force aerial tanker lease in the acquisition strategy for
      the KC-X Program. Unrestricted GAO reports can be accessed over the Internet
      at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
      http://www.dodig.mil/audit/reports.

GAO

      GAO Report No. GAO-07-367R, “Defense Acquisitions: Air Force Decision to
      Include a Passenger and Cargo Capability in Its Replacement Refueling Aircraft
      Was Made without Required Analyses,” March 6, 2007. See Appendix B for a
      discussion of this report.

DoD IG

      DoD IG Report No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker
      Aircraft,” March 29, 2004. See Appendix C for a discussion of this report and the
      Air Force implementation of the associated recommendations in the KC-X
      Program.




                                           15
Appendix B. Government Accountability Office
            Report
   Passenger and Cargo Capability. On March 6, 2007, the GAO issued Report
   No. GAO-07-367R, “Defense Acquisitions: Air Force Decision to Include a
   Passenger and Cargo Capability in Its Replacement Refueling Aircraft Was Made
   Without Required Analyses,” stating that military decision makers approved the
   passenger and cargo capability as a requirement without supporting analysis
   identifying the need or associated risk. The Air Force proposal for a replacement
   refueling aircraft included a passenger and cargo capability without identifying an
   associated gap, shortfall, or redundant capability. The GAO stated that, according
   to mandatory Air Force implementing guidance, analyses supporting the decision-
   making process should assess a capability based on the effects it seeks to generate
   and the associated operational risk of not having it. The GAO concluded that
   Air Force supporting analyses determined neither a need nor a risk with regard to
   a passenger and cargo capability. The GAO recommended that the Secretary of
   Defense:

          •   direct the Secretary of the Air Force to accomplish the required
              analyses that evaluate the proposed passenger and cargo capability to
              determine whether there was a gap, shortfall, or redundancy; assess the
              associated risk; and then submit such documentation to the Joint
              Requirements Oversight Council for validation; and

          •   once those analyses are completed, direct the Chairman, Joint Chiefs
              of Staff, to formally notify the Under Secretary of Defense for
              Acquisition, Technology, and Logistics that such analyses have been
              completed as required before certification of the program to Congress.

   DoD disagreed with conducting the required analyses to establish whether a gap,
   shortfall, or redundancy existed and to assess risks associated with the proposed
   passenger and cargo capability in the replacement refueling aircraft. DoD stated
   that through the Joint Capabilities Integration and Development System process,
   the Air Force presented an analysis and rationale for the passenger and cargo
   capability. DoD further stated that its Joint Requirements Oversight Council and
   the Air Force concluded that the analysis was sufficient justification for the
   capability and that the Joint Requirements Oversight Council validated the
   requirement.

   DoD agreed with the GAO recommendation to formally notify the Under
   Secretary of Defense for Acquisition, Technology, and Logistics once the
   required analyses have been completed. DoD stated that the Under Secretary of
   Defense for Acquisition, Technology, and Logistics will consider whether the
   Joint Requirements Oversight Council has accomplished its duties with respect to
   the program, including an analysis of the operational requirements of the
   program. DoD also stated that the Department would again review the
   justification for a passenger and cargo capability prior to making a decision to
   initiate the acquisition program.


                                       16
In response to the DoD comments, GAO suggested that Congress require that:

       •   in addition to the certification described by section 2366a of title 10,
           United States Code, the Under Secretary of Defense for Acquisition,
           Technology, and Logistics make a specific certification that the
           Air Force had employed a sound, traceable, and repeatable process
           producing analyses that determined whether there was a gap, shortfall,
           or redundancy and assessed the associated risk with regard to
           passenger and cargo capability for the KC-135 Recapitalization; and

       •   consistent with service policy, those analyses are made available to the
           Joint Requirements Oversight Council before the Under Secretary’s
           certification of the program according to section 2366a of title 10,
           United States Code.

Analysis of Alternatives. The GAO plans to complete a review of the KC-X
tanker analysis of alternatives and report the results in early summer 2007.




                                    17
Appendix C. Recommendations Made to the
            Air Force in a Previous DoD
            Inspector General Report on the
            Tanker Aircraft
   On March 29, 2004, we issued DoD Inspector General (IG) Report
   No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker Aircraft,” stating
   that the Air Force used an inappropriate procurement strategy and demonstrated
   neither best business practices nor prudent acquisition procedures to provide
   sufficient accountability for the Boeing KC-767A Tanker Program.

   Based on our findings, we recommended that DoD not proceed with the program
   until it resolves issues pertaining to the procurement strategy, acquisition
   procedures, and statutory requirements. We also recommended that the Deputy
   Secretary of Defense consider the following options.

          •   After implementation of audit recommendations to resolve contracting
              and acquisition issues, proceed with the sole-source acquisition of the
              Boeing KC-767A Tanker Program for 100 or fewer aircraft (Option 1).

          •   Initiate a new major Defense acquisition program based on the results
              of an analysis of alternatives for military tanker aircraft (Option 2).

          •   Implement a mix of Option 1 for some of the tankers and Option 2 for
              subsequent tankers.

   On April 27, 2006, we requested that the Air Force provide comments on 14 open
   recommendations from the report.

   On December 20, 2006, Air Force staff met with staff from the DoD IG to discuss
   the current status of actions to implement the open recommendations in DoD IG
   Report No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker Aircraft,”
   March 29, 2004. In addition, to the current status, the Air Force staff provided an
   overview of the acquisition strategy for the KC-X tanker aircraft acquisition.

   On December 22, 2006, the DoD IG issued a memorandum, “Followup on OIG
   Report No. D-2004-064, ‘Acquisition of the Boeing KC-767A Tanker Aircraft,’
   March 29, 2004,” requesting that the Air Force provide an updated status report
   on the implementation of the open recommendations.

   On March 15, 2007, the Assistant Secretary of the Air Force (Acquisition) issued
   a memorandum, “Follow-up on OIG Report D-2004-064, ‘Acquisition of the
   Boeing KC-767A Tanker Aircraft,’ March 29, 2004,” that addressed actions taken
   or planned to be taken to implement the 14 recommendations. Those actions met
   the intent of our recommendations, as shown in the following chart.




                                       18
        IG Recommendation                                Air Force Response

1. To discontinue the commercial item           1. Final Request for Proposal,
procurement strategy and replace it             January 30, 2007, contains cost-plus-
with a strategy that will use cost or           incentive fee/award fee contract for
fixed-price incentive contracts which           system development and demonstration
would require Boeing to provide cost or         and fixed-price-incentive fee for low
pricing data as appropriate.                    rate initial production and production of
                                                the tanker aircraft.

2. Not use a fixed-price contract for           2. Contract will be cost-plus-incentive
development of the Boeing KC-767A               fee/award fee contract for system
Tanker aircraft and obtain cost or              design and development and will
pricing data from Boeing to determine           require cost or pricing data in
fair and reasonable prices for the              accordance with FAR, Subpart 15.403.
Boeing KC-767A Tanker aircraft
development work.

3. Not use a fixed-price contract for           3. Contract will be cost-plus-incentive
modification of the Boeing KC-767A              fee/award fee contract for system
Tanker aircraft and obtain cost or              development and demonstration and
pricing data from Boeing to determine a         will require cost or pricing data in
fair and reasonable price for the Boeing        accordance with FAR, Subpart 15.403.
KC-767A Tanker aircraft modification
work.

4. Require that the Air Force comply            4. Will comply with DoD IG
with DoD Directive 7600.2, “Audit               recommendation and it is addressed in
Policies,” March 20, 2004, and contact          the acquisition strategy.
the DoD IG for review and approval, as
appropriate, before contemplating using
non-Federal audit services in any
contract.

5. Require that the Defense Contract            5. Air Force will use Defense Contract
Audit Agency be used for the audit              Audit Agency for audit services for the
services in negotiated contracts for the        tanker program.
Boeing KC-767A Tanker Program.

6. Not use a fixed-price contract for           6. Air Force using fixed-price
logistics support of the tanker program         incentive fee contracts for interim
until an adequate baseline cost has been        logistics support and plans to transition
established and obtain cost or pricing          to organic support.
data from Boeing to determine a fair
and reasonable price for the integrated
fleet support.




                                           19
7. Perform appropriate benchmarking              7. The System Requirements
of “performance aircraft availability”           Document, January 25, 2007, specifies
rates for other comparable aircraft              operational availability measures to be
systems before negotiating availability          used based on other Air Mobility
requirements in any contract for                 Command platforms.
logistics support of the tanker program.

8. Comply with statutory requirements            8. Air Force will conduct a business
in the National Defense Authorization            case analysis using applicable Source
Act for FY 2004; section 2464, title 10,         of Repair Assignment Process policy
United States Code, “Core Logistics              and instruction.
Capability”; and the Strom Thurmond
National Defense Authorization Act for
Fiscal Year 1999 requiring analyses of
the costs and benefits of organic or
contractor support core logistics
requirements, performance-based
logistics, and contract length and notify
Congress of its decision before
selecting an integrated fleet support
provider for the tanker program.

9. Establish a process to develop a              9. Offerors’ proposals will be
performance metric for verifying that            evaluated during source selection for
the Boeing KC-767A Tanker aircraft               their approach. The Final Request for
will meet the 40-year service life to            Proposal requires the implementation of
satisfy warfighting requirements.                the Aircraft Structural Integrity
                                                 Program.

10. Revise the system specifications             10. Corrosion control plan required in
for the Boeing KC-767A Tanker                    the Final Request for Proposal and each
contracts to include a requirement for           offeror’s approach to corrosion control
protective measures to control corrosion         will be evaluated during source
in the tanker aircraft.                          selection.

11. Revise the system specifications             11. The Final Request for Proposal; the
for the Boeing KC-767A Tanker                    Capability Development Document,
contracts to include requirements in the         December 27, 2006; and the System
operational requirements document for            Requirements Document include Net-
interoperability with other systems,             Ready key performance parameters.
integration of secure communications,            The System Requirements Document
and combat identification.                       also includes other command, control,
                                                 communication, computers, and
                                                 intelligence requirements.




                                            20
12. Complete a command, control,                 12. The Air Force will complete the
communication, computers, and                    KC-X Information Support Plan before
intelligence support plan for the Boeing         the decision to enter the system
KC-767A Tanker aircraft to address               development and demonstration phase
interoperability, supportability,                of the acquisition process.
information assurance, and sufficiency
concerns, include it in the statement of
work before award of the contracts, and
resolves issues identified by
implementing the support plan before
system acceptance testing.

13. Verify that system specifications            13. All capabilities development
developed for the first spiral of the air        document key performance parameters
refueling aircraft contract(s) include at        are addressed in the Final Request for
least all key performance parameters in          Proposal.
the operational requirements document.

14. Comply with the statutory                    14. Initial operational test and
provisions by conducting operational             evaluation will be conducted in
and survivability testing on production          accordance with section 139, title 10,
representative aircraft before                   United States Code, “Director of
committing to the production of all              Operational Test and Evaluation;” and
100 Boeing KC-767A Tanker aircraft.              section 2399, “Operational test and
                                                 evaluation of defense acquisition
                                                 programs.” The Alternative Live Fire
                                                 Test Plan will be approved by the
                                                 Director, Operational Test and
                                                 Evaluation. Live Fire Test and
                                                 Evaluation will be conducted in
                                                 accordance with section 2366, title 10,
                                                 United States Code, “Major systems
                                                 and munitions programs: survivability
                                                 testing and lethality testing required
                                                 before full-scale production.” Initial
                                                 operational test and evaluation testing
                                                 and the associated final report will be
                                                 completed before full-rate production.




                                            21
Appendix D. KC-X Program Timeline of Events
   The following chart illustrates the KC-X Program timeline of events and depicts
   those events in three timelines. The keys for all of the timelines are on the left
   side of the chart.

   The timeline at the top of the page, “Requirements,” charts actual events
   associated with KC-X requirements that occurred between February 2004 and
   February 2007. The timeline includes the Under Secretary of Defense for
   Acquisition, Technology, and Logistics guidance; Joint Requirements Oversight
   Council validation of documents; and Senior Steering Group, RAND, Program
   Analysis and Evaluation, and Institute for Defense Analyses reviews for the
   recapitalization of the KC-135 tanker fleet.

   The timeline in the middle of the page, “Acquisition,” represents actual events
   associated with KC-X acquisition efforts that occurred between September 2005
   and February 2007. The timeline includes events that led up to the development
   of the acquisition strategy.

   The timeline at the bottom of the page, “Contracting,” represents actual events
   associated with KC-X contracting that occurred between August 2005 and
   February 2007. The timeline includes events that led up to the release of the
   request for proposal.




                                       22
THIS PAGE INTENTIONALLY LEFT BLANK




                24
Appendix E. Glossary
   Acquisition Plan. An acquisition plan is a written document reflecting the
   specific actions necessary to execute the approach established in the approved
   acquisition strategy and contractual documentation.

   Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the
   resource constraints imposed. It is the framework for planning, directing,
   contracting for, and managing a program. It provides a master schedule for
   research, development, test, production, fielding, modification, post-production
   management, and other activities essential for program success. The acquisition
   strategy is the basis for formulating functional plans and strategies.

   Aircraft Structural Integrity Program. The Aircraft Structural Integrity
   Program consists of a series of disciplined, time-phased actions, procedures,
   analyses, and tests. When developed and applied, the Program will ensure
   reliable, affordable, and supportable flight vehicle primary and secondary
   structures, and will enhance mission effectiveness and operational suitability
   while minimizing cost and schedule risks.

   Analysis of Alternatives. The analysis of alternatives is the evaluation of the
   operational effectiveness, operational suitability, and estimated costs of
   alternative systems to meet a mission capability. The analysis assesses the
   advantages and disadvantages of alternatives being considered to satisfy
   capabilities, including the sensitivity of each alternative to possible changes in
   key assumptions or variables.

   Capability Development Document. A capability development document
   contains the information necessary to develop a proposed program, normally
   using an evolutionary acquisition strategy. The capability development document
   outlines an affordable increment of militarily useful, logistically supportable, and
   technically mature capability. The capability development document should be
   approved before the system development and demonstration decision review.

   Critical Design Review. A critical design review is conducted to determine
   whether the detailed design satisfies the performance and engineering
   requirements of the development specification; to establish the detailed design
   compatibility among the item and other items of equipment, facilities, computer
   programs and algorithms, and personnel; to assess producibility and risk areas;
   and to review the preliminary product baseline specifications. A critical design
   review is normally conducted during the system development and demonstration
   phase.

   DoD Components. DoD Components are the Office of the Secretary of Defense;
   the Military Departments; the Chairman, Joint Chiefs of Staff and Joint Staff; the
   Unified Combatant Commands; the Defense agencies; and DoD field activities.

   Full-and-Open Competition. Full-and-open competition for a contract means
   that all responsible sources are permitted to compete.


                                        25
Information Assurance. Information assurance means that information
operations protect and defend information and information systems by ensuring
their availability, integrity, confidentiality, authentication, and nonrepudiation.
Information assurance provides for the restoration of information systems by
incorporating protection, detection, and reaction capabilities.

Information Technology. Information technology is any equipment or
interconnected system or subsystem of equipment, that is used in the automatic
acquisition, storage, manipulation, management, movement, control, display,
switching, interchange, transmission, or reception of data or information by the
executive agency. Information technology includes computers, ancillary
equipment, software, firmware and similar procedures, services (including
support services), and related resources, including National Security Systems.

Initial Capabilities Document. An initial capabilities document describes a
need for a materiel approach to a specific capability gap. The initial capabilities
document defines the gap in terms of the functional area, the relevant range of
military operations, the desired effects, and time. It also summarizes the results
of doctrine, organization, training, materiel, leadership, personnel, and facilities
analyses; and describes why nonmateriel changes are inadequate to provide the
desired capability.

Joint Capabilities Integration and Development System. The Joint
Capabilities Integration and Development System supports the Chairman, Joint
Chiefs of Staff and the Joint Requirements Oversight Council in identifying,
assessing, and prioritizing joint military capability needs as required by law.

Joint Requirements Oversight Council. The Joint Requirements Oversight
Council validates and approves the Joint Capabilities Integration and
Development System documents for programs of interest to the Joint
Requirements Oversight Council.

Key Performance Parameters. Key performance parameters are those
capabilities that are considered to be so significant that failure to meet them can
be cause for a system to be reevaluated or the program to be reassessed or
terminated.

Low-Rate Initial Production. Low-rate initial production is the first effort of
the production and deployment phase of the acquisition process. The purpose of
this effort is to establish an initial production base for the system, permit an
orderly ramp-up sufficient to lead to a smooth transition to full-rate production,
and to provide production-representative articles for initial operational test and
evaluation and live-fire testing.

Major Defense Acquisition Program. A major Defense acquisition program is
an acquisition program that the Under Secretary of Defense for Acquisition,
Technology, and Logistics designates as a major Defense acquisition program or
estimates to require an eventual total expenditure for research, development, test
and evaluation of more than $365 million in FY 2000 constant dollars or, for
procurement, of more than $2.19 billion in FY 2000 constant dollars.



                                     26
Request for Proposal. A request for proposal is a solicitation used in negotiated
acquisitions to communicate Government requirements to prospective
contractors.

Service Acquisition Executive. Service Acquisition Executives or DoD
Component Acquisition Executives are Secretaries of the Military Departments or
the Heads of Agencies, who can delegate that authority. The Service Acquisition
Executives are responsible for all acquisition functions within their Military
Department. Regarding the Air Force, the Service Acquisition Executive is the
Assistant Secretary of the Air Force (Acquisition).

Source of Repair Assignment Process. The Source of Repair Assignment
Process is used to determine whether the permanent source for accomplishment of
a depot level maintenance workload.

Statement of Objectives. A statement of objectives is that portion of a contract
that establishes a broad description of the Government’s required performance
objectives.

System Development and Demonstration. The system development and
demonstration phase is the third phase of the DoD systems acquisition process,
which begins after the milestone decision to enter this phase. This phase consists
of system integration and system demonstration and contains a design readiness
review at the conclusion of the system integration effort.

System Requirements Document. A system requirements document is a high-
level engineering document that expresses the user’s capability needs as system
requirements. For the KC-X Program, the system requirements document
presents the technical performance required for the replacement tanker aircraft.

Systems Engineering. Systems engineering is the overarching process that a
program team applies to transition from a stated capability to an operationally
effective and suitable system. Systems engineering encompasses the application
of systems engineering processes across the acquisition life cycle and is intended
to be the integrating mechanism for balanced solutions addressing capability
needs, design considerations and constraints, as well as limitations imposed by
technology, budget, and schedule.

Systems Engineering Plan. A systems engineering plan is a description of a
program’s overall technical approach that includes processes, resources, metrics,
applicable performance incentives, and the timing, conduct, and success criteria
of technical reviews.

Test and Evaluation Master Plan. A test and evaluation master plan documents
the overall structure and objectives of the test and evaluation program. It
provides a framework within which to generate detailed test and evaluation plans,
and it documents the schedule and resources for the test and evaluation program.
The test and evaluation master plan identifies the necessary activities for
developmental test and evaluation, operational test and evaluation, and live-fire
test and evaluation. Further, the test and evaluation master plan links program



                                    27
schedule, test management strategy and structure, and required resources with
critical operational issues, critical technical parameters, and objectives and
thresholds in the operational requirements document.




                                    28
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense for Networks and Information Integration/DoD Chief
   Information Officer
Director, Operational Test and Evaluation
Director, Administration and Management
   Director, Washington Headquarters Services
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff
   Director for Force Structure, Resources, and Assessment (J-8)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Commander, Air Mobility Command
Assistant Secretary of the Air Force (Acquisition)
  Program Executive Officer for Aircraft
      Program Director, 653rd Aeronautical Systems Squadron
Assistant Secretary of the Air Force (Financial Management and Comptroller)
General Counsel, Department of the Air Force
Deputy Chief of Staff for Air and Space Operations
Auditor General, Department of the Air Force

Non-Defense Federal Organizations
Office of Management and Budget
U.S. Government Accountability Office




                                          29
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      30
                                                                                                                                                                 KC-X PROGRAM


R                                                                                                                                                                                               March 2006
                                            May 28, 2004                                             January 25, 2005
E                                        SSG chooses RAND                                       SSG concludes additional                                                           IDA determines the AoA final report
Q                                        to conduct the AoA                              analysis is needed to complete the AoA                                                    is objective and provides appropriate
U                                                                                                                                                                           foundation for the next steps in the decision process
I                                                                                     November 30, 2004                                                                                                                                                         December 27, 2006
            February 24, 2004                                                                                                                      August 2005 - December 2005
R   USD(AT&L) directs that an AoA for                                                 JROC validates ICD                                                                                                                                                       JROC validates CDD
E                                                                                                                                              IDA Methodology and Objectivity Review
    KC-135 recapitalization be undertaken                                                                                                           & PA&E Sufficiency Review
M      under the oversight of a SSG                                                                                                                                                                                                                      November January
                                                                                                                                                                                                                                                                  29, 2006 25, 2007
                                                        June 16, 2004
E
N
T
S
                                                                                                                                                   August 2005                                  March 2006
                                                                                                     2005                                                                              2006                                                                               2007

      January 2004                     May 25, 2004                                        December 2004                                                                            January 18, 2006                                                                                                                                                            December 2007
                            USD(AT&L) changes AoA original                                             February 28, 2005                                                               DAB review
                     completion date of August 2005 to November 2004                              USD(AT&L) directs additional                                                       of KC-135 AoA
                                                                                                 work be done on AoA by RAND                                                                          April 5, 2006
          Key                                                                                                                                                                                    PA&E determines the AoA                                  November 14, 2006
                                                                                                                                                                                                provides sufficient basis for                       SECAF & SAF/AQ select single
                                                                                                                                                                                               upcoming acquisition decisions                   contract award strategy contained within
                     Analysis of Alternatives Study Plan July 16, 2004                                                                                                                                                                             Draft RFP and direct program office
                     Analysis of Alternatives Drafts                                                                                                                                                                                          to proceed with actions for Final RFP release
                     Initial Capabilities Document November 30, 2004
                     Analysis of Alternatives March 2006                                       A                                                                                                                                    October 2006 - November 2006
                     Test and Evaluation Master Plan Draft November 29, 2006                   C                                                                                                                                     Alternate acquisition strategies
                                                                                                                                                                 September 23, 2005
                                                                                                                                                                                                                                    evaluated with multiple briefings    January 17, 2007
                     Capabilities Development Document December 27, 2006                       Q                                                              Acting SECAF ceases all                                                          to SAF/AQ
                     System Requirements Document January 25, 2007                             U                                                     activities related to tanker recapitalization                                                                    SECAF and USD(AT&L)
                     Systems Engineering Plan Draft February 8, 2007                                                                                                                                                                                                     meeting results in
                                                                                               I                                                                                                                   April 2006 - September 2006                         agreement to sign ASR
                                                                                               S                                                                                                                 Program status updates to SECAF                          and proceed with
                                                                                               I                                                                                                        result in 25 Sep 06' Draft RFP released to industry              Final RFP release
                     Acquisition Decision Memorandum April 13, 2006
                     Acquisition Strategy Draft December 15, 2006                              T
                     Acquisition Strategy January 19, 2007                                     I
                     Projected Milestone B (SDD) September 2007
                                                                                               O
                                                                                               N
                                                                                                                                                                                                2006                                                                             2007
                     Market Research Plan April 25, 2005                                                                                                                                                                                    September 12, 2006
                     Request for Information April 25, 2006                                                  January 2005                                                           September 2005 - April 2006                                                         Nov 28, 2006 - Jan 19, 2007                                                             December 2007
                                                                                                                                                                                                                                           Program office directed
                     Request for Proposal Draft September 25, 2006                                                                                                                        Program Pause                                     to include wording in           ASR Approval Process
                     Industry Days October 24- 26, 2006                                                                                                                                                      April 13, 2006                 25 Sep 06' Draft RFP
                     Request for Proposal Draft December 15, 2006                                                                                                                                     USD(AT&L) authorizes the             indicating intention for
                                                                                                                                                                                                         Air Force to resume the            single contract award
                     Market Research Consolidated Report December 22, 2006
                                                                                                                                                                                                      requirements and acquisition          with right for multiple
                     Request for Proposal January 30, 2007
                                                                                                                                                                                                        processes necessary for a               contract award
                     Source Selection Plan January 30, 2007                                                                                                                                         competitive acquisition program                           November 28, 2006
                     Offerors’ Proposals Due April 2, 2007                                     C                                                                                                                                                     ASP reviews the acquisition strategy
          Acronym Key
                                                                                               O                                                                                                                                              and approval is on hold until resolution of concerns
           AoA              Analysis of Alternatives                                           N
           ASP              Acquisition Strategy Panel
           ASR              Acquisition Strategy Report
                                                                                               T
                                                                                                                                                          August 26, 2005                        April 25, 2006             June 9, 2006                      Nov 29, 2006 - Jan 17, 2007
           CDD              Capability Development Document                                    R
           CPIF             Cost Plus Incentive Fee                                                                                                     Initial RFI is released                    Air Force           Responses from industry             Discussions  between
                                                                                                                                                                                                                                                                 December   22,  USD(AT&L),
                                                                                                                                                                                                                                                                            January
                                                                                                                                                                                                                                                                                2006  30, 2007December 15, 2006
           CSAF             Chief of Staff, United States Air Force                            A                                                      before completion of AoA                   re-issues RFI        to RFI released 25 Apr 06'             SECAF, and SAF/AQ result in
           DAB              Defense Acquisition Board
                                                                                               C                                  April 25, 2005                                                                                                         reduction of contract options from 7 to 5
           FPIF             Fixed Price Incentive Firm Target                                                                                                                                                                                                                                          Draft RFP contains language for single contract award only
           FRP              Full Rate Production                                               T
           ICD              Initial Capabilites Document
           IDA              Institute for Defense Analyses                                     I
           JROC             Joint Requirements Oversight Council
           LRIP             Low Rate Initial Production
                                                                                               N
           PA&E             Program Analysis & Evaluation                                      G
           RFI              Request for Information
           RFP              Request for Proposal                                                                                                                                                2006                                                                             2007
           SAF/AQ           Assistant Secretary of the Air Force (Acquisition)
           SDD              System Development & Demonstration                                               January 2005                                                                                                                                                                                                                                       December 2007
           SECAF            Secretary of the Air Force                                                                                                                                                                                                          December 12, 2006
           SSG              Senior Steering Group                                                                                                         September 2, 2005
           USD(AT&L)        Under Secretary of Defense for                                                                                                                                                                                                      CPIF contract type
                            Acquisition, Technology, & Logistics                                                                                 Deputy Secretary of Defense indicates                                                                           selected for SDD
                                                                                 23                                                      Air Force rescinded initial RFI released in August 2005                                                                                            January 20, 2007
                                                                                                                                                                                                                                                                                            FPIF contract type
                                                                                                                                                                                                                                                                                        selected for LRIP and FRP
Department of the Air Force Comments



                                       DEPARTMENT OF THE AIR FORCE
                                             WASHINGTON DC


                                                                          MAY 1 0                            2007
   OFFICE OF THE ASSISTANT SECRETARY



           MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL
                          ATTN: DEPUTY INSPECTOR GENERAL. TOR AUDITING
                                ACTING DEPUTY INSPECTOR GENERAL TOR POLICY
                                AND OVERSIGHT


           FROM: SAF/AQ

           SUBJECT: Draft Report on the Air Force KC-X Aerial Refueling Tanker Aircraft Program
                    (Project Nos. D:007-D000AB.0099.000 and D2007-D000PT-0110.000)


                    This is in reply to your 26 April 2007 memorandum requesting review and comment on
           the subject report. We concur with the report's two findings and the recommendations. The Air
           Force Program Office will make appropriate changes to the specified documents at [he first
           Opportunity, The attached is provided to respond to the recommendations addressed to the Air
           Force.

                    My staff stands ready to provide additional information upon your request. My point of
           contact is Ms Shelly Alvirez, 703-588-8330.




                                                         SUE C. PAYTON
                                                         Assistant Secretary of the Air Force
                                                          (Acquisition)
           cc: Audit Follow-up Focal Point, OUSD (AT&L)
               Air Force Audit Follow-up Focal Point, SAF/FMPF
               AUD-ACM

           Attachment:
           Response to OIG Findings
                                          Attachment
                              Air Force Response OIG Findings

OIG Draft Report, "Air Force KC-X Aerial Refueling Tanker Aircraft Program," 26 April 2007,
         Project Numbers D2007-D000AB-0099.000 and D2007-D000PT-0110.000


RECOMMENDATION A: We recommend that the Program Director,653rdAeronautical
Systems Squadron (KC-X Program Office) update (be acquisition strategy for the KC-X Aerial
Refueling Tanker Aircraft Program to include guidance for the noncompetitive portion of the
KC-X aircraft acquisition, in accordance with Federal Acquisition Regulation, Subpart 7.105,
"Contents of Written Acquisition Plans." The additional guidance in the acquisition strategy
should include a requirement to obtain certified cost and pricing data from the winning
contractor for the future noncompetitive portion of the KC-X aircraft acquisition, in accordance
with Federal Acquisition Regulation, Subpart 15.403-4, "Requiring Cost or Pricing Data."

RESPONSE: Concur. Consistent with the Request for Proposal, all contracts will include all
required FAR clauses IAW FAR 15.403 to ensure cost and pricing data is obtained for new
aircraft and any modifications. The program office will satisfy the DoD/IG finding by including
this detailed information in the Acquisition Strategy Report update for Milestone B, anticipated
by the end of 2007.

RECOMMENDATION B: We recommend that the Assistant Secretary of the Air Force
(Acquisition) revise the applicable KC-X contractual documents to ensure consistency with the
Director, Administration and Management approved information assurance policy as established
in Recommendation B.1.

RESPONSE: Concur. The Air Force will ensure compliance with approved information
assurance policy as established in Recommendation B.1.




                                        32
                            OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE
                                              6 0 0 0 D E F E N S E PENTAGON
                                             WASHINGTON. DC 2 0 3 0 1 - 6 0 0 0




NETWORKS AND INFORMATION
      INTEGRATION
                                                    May 18, 2007


          MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR AUDITING,
                               DEPARTMENT OF DEFENSE
                               ACTING DEPUTY INSPECTOR GENERAL FOR
                               POLICY AND OVERSIGHT, DEPARTMENT OF
                               DEFENSE

          SUBJECT: Department of Defense Inspector General Draft Report (D-2007-D000AB-
                   0099; D2007-D000PT-0110), "Air Force KC Aerial Refueling Tanker Aircraft
                   Program," April 26, 2007

                    This office has the Following comments regarding Section B of the draft report:

                •      On page 8 under "Information Assurance Requirements," the first paragraph
                       stares that the KC-X Program did not include consistent information assurance
                       guidance. However, the KC-X Capability Development Document identified a
                       likely transition from the DITSCAP to the DIACAP as the new method for
                       certification and accreditation of the KC-X Program and both the Acquisition
                       Strategy and Request for Proposal, issued subsequently, specifically identified
                       the DIACAP as the method of certification and accreditation for the Program,
                       thus confirming the transition and making it abundantly clear that the DIACAP
                       is to be followed. This is not "inconsistent" guidance,

                •      On page 8 under "Effect of Improper Information Assurance Guidance," the            Page 9
                       paragraph implies that the KC-X Program was at greater risk of loss, misuse, or
                       unauthorized access or modification of the information contained in the systems
                       because the Interim DIACAP was "improperly" coordinated. In fact, the
                       Interim DIACAP was based on a draft DoD issuance on certification and
                       accreditation that was concurred in by all of the DoD Components except the
                       DoD IG. Further, the actual protection of systems and information is
                       dependent on the implementation of appropriate information assurance controls,
                       which are addressed through invoking DoDD 8500. i and DoD! 8500,2, so the
                       proper employment of either process (DIACAP or DITSCAP) to validate the
                       information assurance controls will result in an appropriately accredited system.
                       The Interim DIACAP does allow more accurate and consistent reporting on the
                       testing and evaluations required under FISMA, facilitates communication of
                       accreditation status, and lends itself to automation. These three benefits are
                       compelling reasons for issuing the Interim DIACAP.




                                                   33
     •   On page 10 under "Recommendations," B.1.a.recommends that the Director,
         Administration and Management (DA&M), by August 1, 2007, "issue formal
         authoritative information assurance policy," Under DoD Directive 5025.1,
         DoD Directives System." July 14, 2004, the DA&M is responsible for
         administering and operating the DoD Directives System, however, the Principal
         Staff Assistants are responsible for preparing, coordinating, and approving
         instructions within their areas of responsibility. The recommendation should be
         amended accordingly,

      The OASD (NII) 1A Directorate POC for this action is Donald Jones at (703) 614-
6640, Donald.jones@osd.mil.




                                    Robert F. Lentz
                         Senior Information Assurance Officer




                                     34
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management, and the Office of the Deputy Inspector
General for Policy and Oversight, prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Acquisition and Contract Management

Richard B. Jolliffe
Bruce A. Burton
Benjamin A. Mehlman
Jack D. Snider
Susan J. Lippolis
Neal Gause
Chrispian M. Brake
Bernard Vennemann
Zorayma Torres
Jessica Vandemark
Monica Noell

Policy and Oversight

Patricia A. Brannin
Kenneth H. Stavenjord
Jamie A. Bobbio
Charles Dekle
Anh Tran
Minh Tran
